fe w&fcuBa €3
No.

AUGJJlMI
for mailing

IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL EDMONDSON,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.
PROOF OF SERVICE
I, Michael Edmondson, do swear or declare that on this date, Cfk j iX? j

.,2021,

as required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each
party to the above proceeding or that party’s counsel, and on every person required to be served,
by depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The name and addresses for those served are as follows:
Ashley Moody, Attorney General’s Office, 3507 E. Frontage Rd., Ste. 200, Tampa, FL 33607.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

Cft /tn /

., 2021.
(Signature)
I

